OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/BANGLADESH’S
PROMOTING DEMOCRATIC
INSTITUTIONS AND PRACTICES
PROGRAM

AUDIT REPORT NO. 5-388-13-006-P
JUNE 19, 2013




MANILA, PHILIPPINES
Office of Inspector General


June 19, 2013

MEMORANDUM

TO:                  USAID/Bangladesh Mission Director, Richard Greene

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Bangladesh’s Promoting Democratic Institutions and Practices
                     Program (Report No. 5-388-13-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft and have included those comments in Appendix II.

This report contains four recommendations to help the mission improve the overall effectiveness
of the Promoting Democratic Institutions and Practices Program. Management decisions were
reached on all four recommendations. Please provide the Audit Performance and Compliance
Division of USAID’s Office of the Chief Financial Officer with evidence of final action to close
these recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during the
course of this audit.




U.S. Agency for International Development
Annex 2 Building
U.S. Embassy
1201 Roxas Boulevard
1000 Ermita, Manila, Philippines
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Some Activities Started Late ................................................................................................. 4

     Links Between Program’s Two Components Were Weak ...................................................... 4

     Training Was Not Always Adequate or Targeted Effectively .................................................. 6

     Data Reported for Performance Indicators Were Not Supported ........................................... 7

Evaluation of Management Comments.................................................................................... 9

Appendix I—Scope and Methodology ................................................................................... 10

Appendix II—Management Comments .................................................................................. 12
SUMMARY OF RESULTS
Ineffective governance has been a major obstacle to broad-based national development and
poverty reduction in Bangladesh. Parliamentary affairs, for example, have been constrained by
a combination of inadequate legislative research and technical assistance, ineffective oversight,
outdated infrastructure, and a lack of commitment to reform archaic systems and procedures.1

In April 2010 USAID awarded a 5-year cooperative agreement, worth $23.2 million,2 to The Asia
Foundation (TAF) to implement the Promoting Democratic Institutions and Practices Program
with its main subcontractor, the State University of New York’s Center for International
Development (SUNY/CID). The program seeks to strengthen Bangladesh’s National Parliament
and has two objectives: improving the institution’s effectiveness and transparency, and
facilitating increased participation of Bangladeshi civil society in governmental oversight and
making public policy.




               (Source: CIA Factbook)


1
  Cooperative Agreement No. 388-A-00-10-00092-00, Attachment B - Program Description, Section B.1.
2
  This amount includes $7.5 million in co-funding provided by the United Kingdom’s Department for
International Development.



                                                                                                1
The program has two components: “An Effective and Open Parliament” and “A More
Constructive and Sustainable Role for Civil Society in Democratic Governance.” Under the first
component, the program focuses on strengthening the Parliament Secretariat, which is
responsible for providing administrative support to Parliament and works with officials, including
members of Parliament (MPs), to build their capacity to engage in lawmaking and oversight. In
carrying out activities under this component, emphasis is placed on supporting 13 committees
assigned to oversee specific ministries. Under the second component, the program uses
subgrants to work with a variety of civil society organizations (CSOs) to facilitate public
participation in the national policy-making process.

The program is managed by USAID/Bangladesh in Dhaka. As of December 31, 2012,
cumulative obligations totaled approximately $11.3 million and disbursements $8.4 million. The
program is scheduled to end on April 27, 2015.

The purpose of this audit was to determine whether the program was achieving its objectives.
Based on activities completed or in progress as of December 31, 2012, the audit team found
that the program was only partly achieving its objectives and identified several key performance
problems that need to be addressed.

Nevertheless, the program was making progress and has had a few notable achievements,
which are discussed below.

Public Hearings. To help parliamentary committees solicit public input on policy matters, the
program helped conduct public hearings in different parts of Bangladesh to gather citizens’ input
on specific national policy issues. As of December 31, 2012, the program helped arrange public
hearings and field investigations for 5 of the 13 ministerial committees it was supporting.

Based on the positive feedback received, this activity is expected to expand in the near future,
with a growing number of committees expressing interest in participating in the forums.
According to program staff members, this represented a major change in attitude among the
MPs, who in the past were reluctant to participate in such events because the hearings might
prompt negative (or even hostile) responses from the public. Now, thanks to the program, more
MPs are starting to recognize the benefits of soliciting citizen input in strengthening committee
recommendations directed to their ministry. After participating in a public hearing, an MP from
the committee for the Ministry of Commerce said, “When people raise their concerns in their
own words in a public hearing, it carries more value and weight in getting a quick response from
the executive [branch].”

Multiparty Caucuses. To encourage members of different parties to work together, the
program was instrumental in establishing three multi-party caucuses: the Women’s Caucus, the
Caucus on Food Security, and the Caucus on Population Management—the latter formed at the
request of MPs from the three major political parties. These groups give MPs from different
parties an opportunity to collaborate on specific legislative and oversight issues through site
visits, seminars, and other events. Since their formation, all three caucuses have provided
parliamentary committees with useful information, often collected through program-supported
field investigations, about specific national policy issues.

District Public Policy Forums. Through its CSO partners, the program established a number
of district public policy forums (DPPFs) throughout Bangladesh. As of December 31, 2012,
138 were established and in operation, covering 21 of the country’s 64 districts, with women
reportedly comprising one third of total membership. The DPPFs serve as local community


                                                                                                2
platforms that allow members to raise a variety of issues with the MP representing the forum’s
constituency as well as local officials. While most of the issues discussed during these forums
involve local matters, some are about national policy (e.g., amendments needed for an existing
forestry bill to protect the environment), which have been raised in Parliament. During visits to
DPPFs in five districts, members expressed their appreciation for the program’s support and
indicated that because of the program, they now have increased access to their MPs and a
voice in raising issues with them.

However, the audit disclosed the following problems.

   Some activities were running late (page 4). Some were still in an early phase as the
   program approached the end of its third year.

   Links between the program’s two components were weak (page 4). The parliamentary and
   civil society components were not working together as envisioned to strengthen Parliament.

   Training was not always adequate or targeted effectively (page 6). People were not getting
   the full extent of training they needed for their jobs; some also received training that did not
   pertain to their work at all.

   Data reported for nine out of ten performance indicators were not supported (page 7).

The report recommends that USAID/Bangladesh:

1. Develop a plan documenting its strategy for implementing the program and maximizing its
   impact during the time left, taking into account the achievements to date, status of ongoing
   activities, and remaining funding available (page 4).

2. Direct the program implementer to develop a strategy outlining the steps it plans to take to
   establish realistic, sustainable links between its parliamentary and civil society components
   so the latter can fully contribute toward the program’s overarching goal of strengthening
   Bangladesh’s Parliament (page 6).

3. Direct the program implementer to develop a strategy outlining the steps it plans to take to
   make sure appropriate staff members in the Parliament Secretariat, particularly those
   directly supporting the assisted ministerial committees, receive the full extent of training
   needed to strengthen the capacity of the Secretariat to the level envisioned (page 7).

4. Direct the program implementer to amend its monitoring and evaluation plan to include
   procedures requiring that (1) appropriate supporting documentation be maintained at its
   office to support reported performance results and (2) staff conduct spot tests of the results
   data reported by its partners during field visits to the partner offices to verify that the data
   are reliable and identify any discrepancies (page 8).

A detailed discussion of the audit findings appears in the following section. The scope and
methodology are described in Appendix I. USAID/Bangladesh’s written comments on the draft
report are included in Appendix II. Our evaluation of these comments is on page 9.




                                                                                                 3
AUDIT FINDINGS
Some Activities Started Late

According to TAF’s annual work plan, most of its activities were supposed to start in year 1, and
the rest generally would begin in year 2 of the program’s 5-year period.

However, the audit found that, as of December 31, 2012, about 32 percent of the activities were
still in an early phase or, in at least one case, had been dropped (with mission approval).
Among those just starting up were several intended to provide CSOs and the media with tools to
educate the public on democratic practices and processes.

TAF reported that its activities started late because parliamentary leadership initially did not
support the program’s efforts to implement its activities. Although TAF managed to gain support
for the program eventually following the appointment of a new parliamentary secretary, little was
achieved during the first year of operations and most of that year’s activities were rolled over
into year 2. This, in turn, prompted TAF to prioritize its activities in an effort to catch up, and
those that were not considered priorities were deferred.

Progress on some activities was also slow—and in a few cases even languishing—because
TAF was waiting for the Secretariat to act. In one such case, the program had an activity to help
the Secretariat develop an internal and external communications strategy. After conducting an
initial assessment, a consultant hired by the program identified specific actions the Secretariat
needed to take before the activity could start. That was more than a year ago. At the time of the
audit, the Secretariat still had not acted.

As a result of the delayed start and lack of progress, the program now has less time, which may
ultimately reduce its overall impact. In addition, it increases the likelihood that the scope of
these activities will be curtailed especially if there is a reduction in available funding; mission
officials said this was a distinct possibility with the Agency’s budget becoming more restrictive.
In light of the above, we believe the mission needs to assess whether any changes are needed
to carry out the rest of the program. Therefore, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Bangladesh develop a plan
   documenting its strategy for implementing the Promoting Democratic Institutions and
   Practices Program and maximizing the program’s impact during the time left, taking into
   account the achievements to date, current status of ongoing activities, and remaining
   funding available.

Links Between Program’s
Two Components Were Weak

Program activities were performed under two components: one focused on building the capacity
of the Secretariat, and the second focused on helping civil society get more involved in the
policy-making process. Given the importance of public input in assisting Parliament in its policy-
making and oversight processes, the civil society side had a key role in strengthening this
institution. Consequently, linking the two components was critical to the program’s success.



                                                                                                 4
However, the audit found that the links between the program’s two components were weak.
According to a midterm evaluation of the program, conducted at the mission’s request in
January 2013, the connection between the two components was reported to be “almost non-
existent,” with the two appearing to be isolated and not reinforcing each other.

This was particularly apparent when examining the links between the program-assisted
parliamentary committees, which were responsible for policy-making and oversight, and the
DPPFs established under the civil society component—the latter representing one of the
program’s main sources of public input on policy-related issues. The audit determined that
interaction between the two has so far been limited and largely tangential, mostly occurring
during events sponsored by the program. During interviews with DPPFs in five districts,
members said interactions with Parliament were generally limited to meeting with the MP for
their constituency instead of the committees. Likewise, most committee members and staff
interviewed were not familiar with the DPPFs and often responded by asking, “What are they?”

The weak links were attributed to several factors.

Internal Dynamics. The implementer’s project team consisted of staff from both TAF (prime)
and SUNY/CID (subcontractor), with SUNY/CID’s staff focused on the parliamentary activities
under the first component and TAF’s staff focused on the civil society activities under the
second component. According to the agreement, the combined program team was expected to
“function as a unified organization that fuses the respective contributions of the Foundation and
SUNY into a coherent and dynamic program.”

This did not happen. Instead, the program has been criticized for the lack of coordination and
synergy between the two components, which was reflected in the midterm evaluation; “The
collaboration between TAF and SUNY is marginal.” Having TAF and SUNY/CID—the latter
representing one of the losing bidders on this grant—partnering on the same program and
assigned to separate components, created an inherent gap from the beginning. In an interview,
the implementer’s chief of party cited steps he has taken to promote closer integration and
collaboration, but acknowledged that a wall still existed between the two teams.

Delayed Start. Because the program got off to a slow start in its first year, officials focused on
getting activities under the two components initiated and put less emphasis on making sure the
activities were integrated closely. This resulted in the components taking off on two separate
tracks.

No Formal Links. To increase Bangladeshi civil society’s participation in the public policy-
making process, it was envisioned that mechanisms would be established to give DPPFs an
effective way of raising national policy issues with the relevant parliamentary committee so the
committee could recommend appropriate actions.

An analysis of this process, however, showed that there were no formal links between the
DPPFs and the committees that would allow the former to raise issues directly with the relevant
committee. The consensus among DPPF members interviewed was that their constituent MP
represented the most viable, sustainable way of raising national policy issues with Parliament
since this official served at the constituency level and was more accessible to each DPPF.
Unfortunately, parliamentary procedures generally prevent MPs from formally conveying policy
issues directly to committees. So MPs must seek other ways, such as raising the issue with the
relevant minister during Parliament’s weekly plenary session or discussing the matter informally
with a committee member. Neither was considered very effective.


                                                                                                5
The weak links between the two components is a major concern because if not addressed, the
civil society side—representing about 40 percent of the total budget—cannot contribute fully
toward the program’s overarching objective of strengthening Parliament, particularly by making
it more effective and participatory. Although DPPFs have succeeded in getting some local
issues addressed and gaining increased access to their MPs, they have had limited success on
matters involving national policy issues since the DPPFs have had difficulty in raising such
issues with the relevant parliamentary committee; when the issues have been raised
successfully, these efforts reportedly have not yet translated into any policy changes or action.
To address this problem and improve the links between the two components, we make the
following recommendation.

   Recommendation 2. We recommend that USAID/Bangladesh direct its implementer for
   the Promoting Democratic Institutions and Practices Program to develop a strategy, with
   milestone dates, outlining the steps it plans to take to establish realistic, sustainable links
   between its parliamentary and civil society components to make sure the latter fully
   contributes toward the program’s goal of strengthening Bangladesh’s Parliament.

Training Was Not Always Adequate
or Targeted Effectively

To help Parliament (whose headquarters is shown below) build its lawmaking capability and
strengthen its committees, the program conducted a series of training sessions and workshops
for selected Secretariat staff members, including MPs and staff supporting the parliamentary
committees. This training covered a variety of topics, including legislative research, preparing
draft bills, work planning, committee procedures, report writing, communication, and conducting
public hearings.




   Program activities included training to strengthen the capacity of Bangladesh’s Parliament
   to engage in lawmaking and oversight. (Photo provided by the program)


                                                                                                     6
The audit found that the training provided was not always adequate or aimed at the appropriate
people. An analysis of the 100 parliamentary staff trained in 2012 showed that most of the
participants received some—but not all—of the relevant training being offered. For example, the
Secretariat’s two legislative draftsmen attended training on research, but were not included in
the training on legislative bill drafting. In addition, some of the private secretaries to the
committee chairmen had not attended the training on conducting public hearings even though
they were often the ones directly involved in organizing these events. One secretary was
provided only with the manual from the training.

The audit also identified a few cases in which participants derived little benefit from the training
received since it was not relevant to their current positions. One official interviewed said he
attended the training on legislative research and drafting, but was not involved in these tasks
and recalled little from the training sessions.

Program staff said that when they initiated training activities, the Secretariat’s leadership
informed them that they had no authority to specify which candidates within the Secretariat, with
the exception of committee members, could attend. They could only specify the class size and
certain other general parameters, such as targeted positions or offices.

Another contributing factor was the level of monitoring over this activity. The audit found that
TAF did not maintain records that would allow it to track the training received to date by
individual participants. Being able to track this data could have at least partially mitigated the
constraints imposed on the selection process.

Not making sure that appropriate candidates are selected and receive the full array of training
they need ultimately reduces the program’s effectiveness and potential impact. Given the
quantity of training being provided, proper tracking is also critical. Without adequate records to
track the training provided to date to each participant, it is difficult to identify who to target for
future training to ensure that staff receive the full extent of training needed. This, in turn,
increases the likelihood of gaps in the provision of training.

To maximize the benefits derived from future training provided to the Secretariat, we believe the
program needs to adopt a more focused approach and take steps to ensure that appropriate
staff members receive the training they need to strengthen the capacity of the Secretariat,
particularly its committees. Consequently, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Bangladesh direct its implementer for
   the Promoting Democratic Institutions and Practices Program to develop a strategy
   outlining the steps it plans to take to make sure appropriate staff within Bangladesh’s
   Parliament Secretariat, particularly those directly supporting the program’s target
   committees, receive the full extent of training needed to strengthen the capacity of the
   Secretariat to the level envisioned.

Data Reported for Performance
Indicators Were Not Supported

USAID’s Automated Directives System 203.3.11.1, “Data Quality Standards,” states that
performance data are expected to meet quality standards for validity, integrity, precision, and
reliability to be useful for measuring performance and managing for results. In addition, the
Government Accountability Office’s Standards for Internal Control in the Federal Government


                                                                                                    7
requires that all transactions and significant events be documented clearly and readily available
for examination. Therefore, missions (and implementers) must ensure that both data quality and
adequate recordkeeping are maintained so reported performance data can be used as an
effective monitoring tool for assessing performance and making informed decisions.

The audit found that data reported for nine of the ten sampled performance indicators
(90 percent) were not supported for one or more of the quarters in 2012 reviewed. In these
cases, the auditors found little or no records on file with the implementer to support the data.

This deficiency was attributed to the absence of procedures in TAF’s monitoring and evaluation
plan for documenting data reported under the program’s performance indicators. Although the
plan outlined procedures for collecting performance data from partners in the field and
consolidating the data for reporting purposes, it did not explain the manner and extent to which
the data and this process should be documented.

With limited records available to support the reported performance results data, there was no
audit trail, so the audit team could not determine where the data came from or how they were
compiled. When reported data were based on results collected and consolidated from multiple
partners, the program’s staff could not give the auditors a breakdown of how much of the total
was reported by each partner. Consequently, we could not test this data.

The audit team also noticed that the program’s staff were not conducting any spot tests of the
data received (e.g., in conjunction with field visits to the partners’ offices) to validate reliability
because existing procedures did not require such testing. Because of these weaknesses, the
auditors had little assurance that the reported data were reliable and could be used as a basis
to measure progress.

To address these deficiencies and help strengthen the reliability of the reported performance
results data, we make the following recommendation.

   Recommendation 4. We recommend that USAID/Bangladesh direct its implementer for
   the Promoting Democratic Institutions and Practices Program to amend its monitoring
   and evaluation plan to include procedures requiring that (1) appropriate documentation
   be maintained to support the results data reported under the program’s performance
   indicators and (2) implementer staff conduct spot testing of the results data reported by
   its partners during field visits to verify that the reported data are reliable and identify any
   discrepancies.




                                                                                                     8
EVALUATION OF MANAGEMENT
COMMENTS
The mission provided comments in response to the draft report. Our evaluation of management
comments follows.

Recommendation 1. The mission reached a management decision on this recommendation
and stated its plans to develop a strategy covering the program’s remaining period. Among
other things, this strategy will include actions to eliminate or reduce the scope of activities that
have stalled or are not in line with mission priorities. The mission anticipates finalizing this
strategy by August 31, 2013.

Recommendation 2. The mission reached a management decision on this recommendation.
To address the recommendation, the mission stated that it has directed its implementer, TAF, to
develop a strategy, with milestone dates, outlining the steps it plans to take to establish realistic,
sustainable links between its parliamentary and civil society components to make sure the latter
contributes fully toward the program’s goal of strengthening Bangladesh’s Parliament. The
mission expects this strategy to be finalized by August 31, 2013.

Recommendation 3. The mission reached a management decision on this recommendation.
As part of the strategy referenced in the response to Recommendation 2, the mission directed
its implementer to include a strategy, with milestone dates, outlining the steps it plans to take to
make sure appropriate staff within Bangladesh’s Parliament Secretariat, particularly those
supporting the program’s target committees, receive the full extent of training needed to
strengthen the Secretariat to the level envisioned. The mission expects this training strategy to
be finalized by August 31, 2013.

Recommendation 4. The mission reached a management decision on this recommendation
and stated that it has directed TAF to amend the approved monitoring and evaluation (M&E)
plan to address the areas of concern identified by the audit. Specifically, the mission has
directed TAF to revise its M&E plan to make sure (1) appropriate supporting documentation is
maintained at its program office in Dhaka to support reported performance results data, and (2)
program staff conduct spot testing during field visits to verify that the reported data are reliable
and identify any discrepancies. The mission expects this updated M&E plan to be finalized by
August 31, 2013.




                                                                                                    9
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Manila conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Bangladesh’s Promoting Democratic
Institutions and Practices Program was achieving its overarching objectives of improving the
effectiveness and transparency of Bangladesh’s National Parliament and facilitating increased
participation of Bangladeshi civil society in making public policy.

To implement the program, USAID signed a $23.2 million cooperative agreement with TAF in
April 2010, covering the 5-year period from April 28, 2010, to April 27, 2015. As of
December 31, 2012, cumulative obligations under the program totaled about $11.3 million, and
disbursements totaled about $8.4 million.

The program consisted of two components: “An Effective and Open Parliament” and “A More
Constructive and Sustainable Role for Civil Society in Democratic Governance.” The audit
covered selected activities under these components, both completed and ongoing, from the
program’s inception through December 31, 2012.

In planning the audit, the auditors identified relevant controls used by USAID/Bangladesh to
manage the program and oversee its activities. These controls included the review of the
implementer’s quarterly financial and progress reports, approval of annual work plans, monthly
meetings with the implementer to discuss program status, arranging the midterm evaluation,
and maintaining regular contact with the implementer via phone and e-mail. In addition, the
auditors examined the mission’s fiscal year 2012 annual self-assessment of management
controls, which it is required to perform to comply with the Federal Managers’ Financial Integrity
Act of 1982,3 to determine whether the assessment cited any relevant weaknesses.

Audit fieldwork took place from February 3 to March 7, 2013, at USAID/Bangladesh, the
implementer’s office, Parliament, and offices of selected CSOs, all in Dhaka. The audit team
also made field visits to 5 of the program’s 21 target districts (Sirajganj, Khulna, Jessore,
Jhenaidah, and Magura) during which they met with members of 5 DPPFs as well as a variety
of local officials.

Methodology
To determine whether the program was achieving its overall objectives, the audit team initially
examined the implementer’s quarterly progress reports to ascertain the status of activities and
the accomplishments and key deliverables achieved to date for the activities. The team

3
    Public Law 97-255, codified at 31 U.S.C. 3512


                                                                                               10
                                                                                       Appendix I


interviewed relevant USAID staff, including the agreement officer’s representative for the
program, as well as the implementer’s chief of party and management team. In addition, the
auditors reviewed relevant background documents, including the most recent portfolio review,
annual work plans, results from a recent midterm evaluation, the performance monitoring plan,
correspondence, and other records to gain an understanding of the program and its activities.

Audit work under Component 1 included a series of interviews with 21 parliamentary leaders
and staff, many of whom were supporting 1 of the program’s 13 assisted parliamentary
committees, to get feedback on the quality and effectiveness of the training received and other
program-supported activities at Parliament. The auditors also performed an analysis on the
parliamentary staff receiving training under the program in 2012 to ascertain whether
appropriate people were being trained and receiving all of the relevant training being offered for
their positions and responsibilities.

Under Component 2, the audit selected a judgmental sample of civil society subgrants
implemented by local CSOs and reviewed activities under each. The sample consisted of 5 of
the program’s 25 subgrants, representing about 25 percent of the total value ($3.9 million) of the
subgrant portfolio as of December 31, 2012. For four of the five sampled subgrants, the main
activities involved the establishment of DPPFs throughout each CSO’s designated district(s)
and providing training to the group members to build their capacity. In reviewing these activities,
the audit team conducted field visits to selected districts to interview group members and solicit
their feedback and views on the training and support provided as well as other issues (e.g.,
sustainability of groups).

In validating the results data reported under the program’s performance indicators, the auditors
selected a judgmental sample involving 10 of the program’s 19 performance indicators and
tested the balances reported over a period covering three quarters ending December 31, 2012.
This involved comparing reported results data with records on file at the implementer’s main
office to verify that the reported data were accurate. The auditors established a materiality
threshold of 15 percent. For example, if the total deficiencies identified exceeded 15 percent of
the tested data, the auditors concluded that the reported data reviewed were not reliable.
Because selection was based on a judgmental sample, results and overall conclusions were
limited to the items tested and could not be projected to the entire audit universe.




                                                                                                11
                                                                                       Appendix II



MANAGEMENT COMMENTS


                                         June 05, 2013

MEMORANDUM:

TO:            William Murphy Regional Inspector General, Manila

FROM:          Richard Greene, Mission Director, USAID/Bangladesh /s/

SUBJECT: USAID/Bangladesh response on the Draft Performance Audit Report of the
               Promoting Democratic Institutions and Practices (PRODIP) Program.

Reference: Murphy/Greene Memorandum dated May 10, 2013, Subject: Audit of
               USAID/Bangladesh’s Promoting Democratic Intuitions and Practices Program
               (Report No. 5-388-13-00x-P).


USAID/Bangladesh wishes to thank the Regional Inspector General/Manila team for conducting
the referenced performance audit of the Promoting Democratic Institutions and Practices
(PRODIP) program. The subject draft audit report has been thoroughly reviewed by the
Democracy and Governance Office (DGO) in collaboration with other offices in the Mission.

The Mission appreciates the opportunity to comment on the draft audit report and the four
recommendations therein as the Regional Inspector General (RIG) prepares the final report.
The following are the Mission’s comments on each of the four recommendations.

Recommendation 1: We recommend that USAID/Bangladesh develop a plan documenting its
strategy for implementing the Promoting Democratic Institutions and Principles (PRODIP)
Program and maximize the program’s impact during the time left, taking into account the
achievements to date, current status of ongoing activities, and remaining funding available.

Management Comments: USAID/Bangladesh concurs with the recommendation
and is developing a plan that will document its strategy for maximizing PRODIP’s program
impact over the remaining award period. Among other things, the strategy will involve
eliminating and reducing the scope of specific activities that have stalled or are not in line with
Mission priorities. USAID/Bangladesh expects to finalize the PRODIP plan by August 31,
2013.


                                                                                                12
                                                                                         Appendix II


Recommendation 2: We recommend that USAID/Bangladesh direct its implementing partner
for the Promoting Democratic Institutions and Practices Program to develop a strategy, with
milestones dates, outlining the steps it plans to take to establish realistic, sustainable links
between its parliamentary and civil society components to ensure that the latter fully contributes
towards the program’s goal of strengthening Bangladesh’s Parliament.

Management Comments: USAID/Bangladesh concurs with the recommendation and has
directed PRODIP’s implementing partner, The Asia Foundation, (TAF) to develop a strategy,
with milestones dates, outlining the steps it plans to take to establish realistic, sustainable links
between its parliamentary and civil society components to ensure that the latter fully contributes
towards the program’s goal of strengthening Bangladesh’s Parliament. USAID/Bangladesh
expects to finalize PRODIP’s strategy document by August 31, 2013.

Recommendation 3: We recommend that USAID/Bangladesh direct its implementing partner
for the Promoting Democratic Institutions and Practices Program to develop a strategy outlining
the steps it plans to take to ensure that appropriate staff within Bangladesh’s Parliament
Secretariat, particularly those directly supporting the program’s target committees, receive the
full extent of training needed to strengthen the level of the Secretariat to the level envisioned.

Management Comments: USAID/Bangladesh concurs with the recommendation. As part of
the strategy referenced in the response to Recommendation 2, TAF has been directed to
develop a strategy, with milestones dates, outlining the steps it plans to take to ensure that
appropriate staff within Bangladesh’s Parliament Secretariat, particularly those supporting the
program’s target committees, receive the full extent of training needed to strengthen the level of
the Secretariat to the level envisioned. USAID/Bangladesh expects to finalize PRODIP’s
strategy document by August 31, 2013.

Recommendation 4: We recommend that USAID/Bangladesh direct its implementing partner
for the Promoting Democratic Institutions and Practices Program to amend its monitoring and
evaluation plan to include procedures requiring that (1) appropriate documentation be
maintained to support the results data reported under the program’s performance indicators and
(2) implementer staff conduct spot testing of the results data reported by its partners during
field visits to verify that the reported data are reliable and identify any discrepancies.

Management Comments: USAID/Bangladesh concurs with the recommendation and has
directed TAF to update their approved monitoring and evaluation (M&E) plan. Specifically, DGO
directed PRODIP to ensure (1) that appropriate supporting documentation be maintained at
PRODIP’s office in Dhaka to support reported performance results data; and (2) PRODIP staff
conduct spot testing during field visits of data reported by its partners in order to verify that
reported data is reliable and identifies any discrepancies. USAID/Bangladesh expects to
finalize the M&E plan by August 31, 2013.




                                                                                                  13
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
            http://oig.usaid.gov
